No. 19-400
I N T HE

~upreme QJ:ourt of tbe fflniteb $late~
GARMIN USA, INC. , ET AL.,

Petitioners,
V.

CELLSPIN S OFT, I NC. ,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTORARI
CERTIFICATE OF COMPLIANCE
As required by Supr eme Court Rule 33. l (g), I certify t h at t he document
contains 8,113 words, excluding the parts of th e documen t t hat ar e exempted by
Supreme Court Rule 33.l(d).
I declar e under pen a lty of perjury t h at t he foregoing is t rue and correct.
Executed on October 23, 2019.

~JOHN J. EDMONDS =
Counsel of Record
EDMONDS & S CHLATHER P L L C
355 Sout h Grand Avenue, Ste . 2450
Los An geles. CA 90071
(2 13) 973-7846
jedmon ds@ip-lit.com
Counsel for Respondent
Cellspin Soft, I nc.

